Keith Smeaton

m

CD

18 Ravenscourt
Benthal Road
London N16 7SS
UK
M:07999558103
E: heilo@keithsmeaton.com
March 27, 2021

Mr Michael Duggan
FA: Scott S. Harris, Clerk
Supreme Court of the United States
Washington, DC 20543-0001
USA.

V'cv Ip l

vi'- lu—

Dear Mr Duggan,
Re: Keith Smeaton V United States of America Case No. WWS-83-CR-0213 Certiorari Appeal
of Sec 2255 Habeas Corpus No. 1551 from 9th Circuit Court of Appeal order from January 15,
2021 denial of En Bance Reconsideration of April 9th Circuit ICourt of Appeal order dated 7,
2020 denial of appeal from San Francisco District Court order dated October 26th, 2018.
Thank you for your letter of February 24, 2021 enclosed herewith.
Please find attached my subject Pro Se Certiorari Appeal for the Supreme Court's

FILED
MAR 3 0 2021

OFFICE OF THE CLFRK
il R

L SUPREME COURT

consideration with my application to proceeded in forma pauperis supported by the UK's
Government's DWP letter proving I am impecunious. Attached to the Court's required
financial form.
Please note, various firms of Attorney's refuse to assist me because of my dyslexia problems
of which you are aware. I, previously informed the court that dyslexia make it virtually
impossible to comply with the court written rules because I do not understand them. I have
done my best to comply with said rules. Therefore, I ask to court to implement the
adequate adjustments for said hidden mental disability. I apologise for the possible
repetitiveness of my Statement of Case. However, I have made it as succinct as I can.
I had previously filed exhibits Sec 2255 and proceeding transcripts and medical diagnosis
supporting debilitating effects of dyslexia. However, I have attached them again in case the
previously files exhibits have been deleted.
Because of my impecunious state I am unable to pay for the many copies as required.
I understand that the court has the discretion to grant Certiorari if it finds the Government's
or Judiciary's action are an insult to the U.S Constitution regardless of the correctness of
said petition and will grant extension of time to correct said Petition. IN that regard,
because this matter includes "Civil Rights" issues as discussed in my Statement of case the

RECEIVED
-APR+2s4821
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Case of "Murphy" facilitates appointment of council to facilitate my filing correctly properly
formulates said petition? If the Court refuses my Petition for being incorrectly formulated or
out of time it arguably contravenes the ADA Act 1990 and denies me access to the court
through said disability.
I look forward to your reply.
Sincerely

Keith Smeaton
Appellant Defendnat.

ps;

iflw

fjL&

~fUen/Z

uau)

o
Questions Presented:

1 - Would a reasonable Jurist find the Appellant Constitutional Rights under e.g. The 1st, 5th, 6ths
and 14th Amendments had been denied?

2 - Was the Appellant denied due process of law?

3 - Did the judiciary and the Assistant Prosecutor, Postal Inspector and Probation Officers
contravene Appellant's rights under the ADA Act 1990 by failing to apply the required adequate
adjustments for hidden Learning Dyslexia disability during the 1983 proceedings to date save for
HHJ Peter L. Shaw, 9th Circuit Appeals Commissioner?

4 - Did the 1985 DJ err when failing to comply with the rule 11 of Federal criminal procedure
when allowing and accepting the Assistant prosecutor to describe the crime of mail fraud which
supposedly appellant had committed?

5 - Did the FPD's failure to object to the 1985 DJ err allowing Prosecutor's to describe said crime
and when DJ accepted it?

6 - Were all three FPDs in error when refusing to investigate the:

(0

the elements of Appellant's defences as argued in Sec 2255 e.g. The fraud
charges was merit-less on grounds the U.S Prosecutor and Postal Inspector
concealed the defence evidence of Appellant's (a) hand writing samples negating
charge of false statement to banks and (b) the appellant's clients relied upon the
B of A bank's representation to Appellant's that the trust account existed for
clients money and;

(ii)

There was no internet or scheme to commit fraud on grounds it was a
misunderstanding caused by the debilitating effects of Appellant's undiagnosed
learning disability Dyslexia causing Appellant to subconsciously avoid written
matter e.g. contract and rely upon verbal agreements with the B of A and;

(iii)

That appellant was in no mental state to enter a guilty plea on grounds he was at
the time under doctor's orders psychotherapy at the Mount Diablo

o
Rehabilitation Centre which the of which was before DJ shortly after the plea
proceeding filed in the subsequent bail jumping and;
(iv)

Learning of this FPD failed to apply to set aside plea conviction in a timely
manner and;

(v)

Was FPD negligent when not applying to set-aside pleas conviction when in
receipt of new post-conviction official medical evidence concerning appellant's
debilitating FIIDDEN effects of his at time of plea undiagnosed learning disability
Dyslexia which removed the required element of intent to commit fraud
confirming misunderstanding and;

(vi)

When they failed to apply to set aside the fraud conviction before the bail
jumping charge was handed down and;

(vii)

When they failed to object to the Prosecutor's demand for plea proceeding
before a pre-trial evidence hearing had occurred to determine if there was
evidence supporting a trial or plea and;

(viii)

When failing to establish the defense of "Promissory" estoppel" on grounds of
Appellant and his clients reliance upon the B of A's independent representation
to said clients that the trust account existed on grounds Justice Blacks law
dictionary states "Promissory Estoppel at its widest is a misrepresentation sans
criminal intent" and;

(ix)

When not objecting to the DJ's over emotional demeaner rendering him
irrational at sentenced and;

(x)

When 1985 FPD did not object to DJ required probation Officer to testify at
sentencing without notice to the defense who then was untruthful under oath
when stating Appellant had not supplied his financial situation when he had at
prior arraignment and;

(xi)

Therefore did FPD err when not objecting to (i) DJ requiring Probation Officers
testimony without notice and (ii) false and untruthful PSI report which, (iii) the
Government concealed until the last minuet denying Appellant to object to its
untruthful content and;

(xii)

When FPDs erred when failing to object to the Prosecutor's false and untrue
argument in court that Appellant had cheated every person he had come in
contacted with since he had in arrived in the U.S.A .

o
(xiii)

FPD refused to investigate or consider the Civil Judgement appellant had secured
against R/L Abbott, business partner, proving his embezzlement form appellant
personally by stealing appellant's ID and stealing money from appellant's credit
in appellant's name leaving debt with appellant with the intent taking over
appellant's company RJS Packaging Corp, financed by the UK family Company of
same name now ruined and (ii) relator Mr Mayer's breach of verbal contract to
refinance appellants second business WIMG Corp upon Appellant purchasing his
house. This resulted in appellant unable to pay mortgage and his repossessing
said house evicting appellant's wife and infant daughters on to the street while
appellant was in jail facilitating Mayer's collecting the mortgage money and the
house and;

(xiv)

When the FPD failed to object to the Prosecutor's selective and malicious
prosecution of appellant when should have known or knew evidence proved him
innocent and that Abbott had mislead the Government as to true fact e.g.
Abbott informing Government appellant has stolen form him which is contrary
to the civil judgment against Mr Abbott which FPD knew the Government was
aware but suppressed and concealed it from the grand jury and the Federal
court.

7 - Did the 1985 DJ err for allowing the plea proceeding to occur before said evidence hearing to
determine if there was evidence to support a trial or plea proceeding?
(

j

Did the 1985 DJ err and demonstrate bias against appellant when angrily dismissing and
emotionally dismiss appellant's dyslexia disability

8 - Was HHJ Peter L. Shaw?, Appeal Commissioner in 2017 right to transfer the Sec 2255 to the
DJ for hearing?

9 - Is there a conflict of law between HHJ Peter L. Shaw's 2017 opinion that Sec 2255 No. 1551
should be listed in the lower District Court for hearing on grounds it has Constitutional merit
and Constitutional Due process was previously denied in 1985 as opposed to HHJ's Owen and
Bennett, Circuit Judges 2020 opinion that there was no Constitutional merit and therefore it

o
should not be listed on grounds DJ had no jurisdiction to hear Sec 2255 based their application
of Slack V McDaniel?

10 - Was appellant's rights under both the U.S. Constitution and The he 1948 Universal
Declaration of Human Rights baring torture through false imprisonment obstructed and abused
when:

0)

the 1985 DJ dismissed Sec 2255 by his personal letter which was not an appealable
court order

(H)

(ii) when the 1985 DJ overruled Congress's Statute Title 28 USC Sec 2255 when not
acting upon Sec 2255 within the required 28 days of DJ's receipt of it and

(iii)

(iii) said DJ waited for almost 90 days to act upon it?

(iv)

9th Circuit Judge HHJ Choy correct to delay acting upon Sec 2255 appeal until
Appellant was released from prison and

(v)

Did this these acts of the 1985 DJ and 9th Circuit judges deny appellant's
constitutional rights and deny him due process?

11 - Were the Appellant's Constitutional rights contravened when the 1985 DJ dismissed Sec
2255 without a judicially render opinion as to why inhibited Appeal court function?

12 - Did the 2018 Assistant prosecutor err when opposing Sec 2255 by arguing DJ lllison did not
have jurisdiction to hear Sec 2255 on grounds Slack V McDaniel was misapplied?

j

13 - Did DJ llison in 2018 err when (i) choosing to ignore and not judicially consider the legal
merits of all the above issues raised in Sec 2255 which HHJ Peter L. Shaw had noted as having
Constitutional merit and (ii) dismissing Sec 2255 without Oral Argument on the grounds HHJ
Peter Shaw had obviously found constitutional merit in Sec 2255 other wise he would not have
wasted public money and court time in order DJ hearing?

14 - Was HHJ Owen and Bennet, 9th Circuit, in error when allowing the lower DJ llison to not
judicially consider all the above issues raised in Sec 2255 and to dismiss Sec 2255 without oral
argument?

15 - Was HJJ Thomas and Bress in 2021 error when (i) refusing to reconsider the prier order

Q

o
2020 of HHJ Owen and Bennett application of Slack and (ii) only dismiss Reconsideration on
grounds Appellant had not met 9th Circuit rules because time constraints and (iii) said Judges
failed to consider that they wrongly invoked said rules because the 9th Circuit Clerk sent the
2020 order to the wrong address in the UK and (iii) they refused to consider all of the above
constitutional issues raised in Sec 2255?

16 - Did all the named judges from 1985 to date, save for HHJ Peter L Shaw, wrongly overrule
both the U.S Constitutional Human Rights intent of Sec 2255 Habeas Corpus as mandated by
Congress and Accepted internationally contravening the intent of the Declaration of
Independence and the U.S Bill of Right which arguably have resulted in contravention of
#

freedom and justice for all and life liberty and happens arguably achieved by correcting the
injustice that has occurred to appellant and his destroyed international family?

17 - Did The 1983 Assistant US Attorney Eb Lickle and Postal Inspector David West burg
Obstruct and Pervert Justice when concealing defence evidence from the grand jury and the
Federal Court?

18- Did all lower Judges error when refusing the address the prosecutorial misconduct
obstruction of justice which all lower Judges save for HHJ Peter L. Shaw, error when avoid the
issues raised in Appellant's Sec 2255 No. 1551?

)

19 - Does this case include Civil Rights regarding false imprisonment? When 1985 DJ used his
unappealable personal later to deny Sec 2255 Habeus Corpus? Leaving appellant in prison.

20 - Did the 1985 9th Circuit HHJ Choy and two others contravene Appellant's Civil Rights when
refusing to consider appeal of Sec 2255 until appellant was released form prison leaving him in
prison?

21- Have the acts of the lower Judiciary save for HHJ Peter L. Shaw killed he U.S Constitution
and does Freedom and Justice For life liberty and happiness still exist?

Posr*r~
,7^ "5v< sr'i

i

h> t

INDEX
Affidavit to Proceed in Forma Pauperess

1 to 7

Question

8 to 12

Statement of the Case

13 to 26

Table of Authorities

27

Statues & Rules
January 15th, 20219th Circuit Court order Exhibit "A" on appeal
Denying Reconsideration pursuant to 9th Circuit Rules
Not applicable because court sent prior order to wrong

28

29

UK address.
April 17,2020 9th Circuit Court Exhibit "B" or denying appeal from DJ
On grounds Sec 2255 did not show denial of Constitutional Rights

30

2018 October 26,2018 DJ order Exhibit "C" denying Sec 2255 Habeas
Corpus on grounds of no DJ Jurisdiction because Appellant released

31 to 35

from prison.
Appellant's Motion for Reconsideration of 2020 9th Cir. 2020

36 to 47

Order.
2018 Government's reply to Sec 2255 unsigned and unsealed

48 to 52

2017 order HHJ Peter L. Shaw, 9th Circuit Appeal commissioner

53

Appellant's April 7,1985 letter to 1985 DJ asking when Court
will act up^p Sec 2255 No. 1551 filed February 12,1985.

54

1985 DJ's personal letter to appellant denying Sec 2255 which
Is not aa court order and unbailable keeping Appellant in prison
Ignoring post-conviction evidence of innocents
denial of Constitutional Rights Human Right violation and overruling
Title 28 USC Sec 2255 a Constitutional denial of due process.

55

Appellant's Sec 2255 Habeas Corpus No. 1551 arguing
ineffective assistance of FPD counsel, Prosecutorial misconduct
obstruction of justice and judicial error, Probation untruthfulness
medical Civil defence to Fraud based upon promissory estoppel and
ground to set-aside Coerced and induced guilty plea due to
appellant's Adjustment Reaction rendering him open to suggestion

56 to 81

to plead guilty.

1983 / 2018/2019 Post-Conviction medical evidence
Supporting Sec 2255.

82 to 96

Appellant's 1985 Petition for Write of Mandamus seeking
DJ be order to file an appealable order facilitating appeal

97 to 99

Transcript of 1983 in case 0213 Plea proceeding proving Judicial
Errors Not copying with R11 f.r.cr.p allowing Prosecutor to
describe supposed crime misleading court as to fact..

97 to 116

Transcript of 0213 Sentencing

117 TO 137

Note, The 9th Circuit Court of Appeal JHH Judge Choy denying
Bail jumping is currently filed with Keith Smeaton V Alan Nelson
et, al USCA9 No. 20-15364 which is not included in this subject appeal.
HHJ Choy presiding over subject 1985/6 appeal of DJ's 1985 denial of
Sec 2255 No. 1551 who refused to consider it until I was released form
Prison in to USINS jurisdiction deportation proceedings. The Sec 2255
Argument and post-conviction evidence also supported HHJ Choy's denial
of direct of Bail Jumping case WWS-83-CR-0693 is in error. The result of this
is that the 9th Circuit or some other faction removed the entire court records of
0693.

o
STATUTE AND RULES:
The U.S Constitution's 1st, 5th, 6ths and 14th Amendments.

U.S Constitution 1st, 5th 6ths and 14th Amendments,
The U.S Bill of Rights
Article 39/40 of Magna Carta Constitutionally guaranteeing a fare trail.
The ADA At 1990
Void ab Initio
Nunc Pro Tunc
The U.S Civil Rights Act 1965 /1866
The Habeas Corpus Act 1679
Title 28 USC Sec 2255 and i453 inclusive.
Title 18 USC Sec 1510 and lSec 503
CONSTITUTIONAL AND STAUTUATORY PROVISIONS INVOLVED:
Abuse of power and authority and malfeasance in office
Fales Imprisonment
Denial of Common Law Rights
Conspiracy to selectively and maliciously prosecute Appellant
Prosecutorial abuse Assistant US Prosecutor's and Postal Inspectors Negligence
FPDs infective assistance of Council - professional negligence
Judicial Abuse
Judicial abuse overriding Congress's statutes.
Contravention of the 1948 Universal Declaration of Human Rights Baring Torture through false
imprisonment.
Abuse of Due process failing to protect citizens
Denial of access to the Federal Courts.
Court officer's Obstruction and perversion of Justice.

o
TABLE OF AUTHORTITES CITED Cases:
Washington V, Strickland 466 U.S. 668 (1984)
Black’s Law dictionary, promissory estoppel
United States V. Frankhauser, 80 F.3d 641,653 (ist Cir 1996)
United States V.Mullins, 22 F.3d 1365 (6ths Cir. 1994)
United States V. Jones, 663 F.2d 567,569 (5th Cir.1981)
7the omnibus clause of 18 U.S.C Sec 1505.
United States V. Capsopia 260 F.2d 566 (2nd Cir. 1958).
Title 28 USC Sec 2255
Stephenson V. Herrera 464 F.3d, 897 (9th Cir. 2006)
Slack v McDaniel 529 U.S. 473 2000
Johnson v The United States 576 U.S. 591 (2015)
Max Plank Institute for Comparative Public Law and International Law under the direction of
professor Anne Peters (2021-) and Professor Rudiger Wolfram (2004-2020)
Murphy V. Smith, 138 S.CT 784 (2018) & The litigation Reform Act 42 USC Sec 1201
Habeus Corpus Sec. 2255 no. 1551 in the criminal case of WWS-83-CR-0213,
United States v. Dinome, 954 F.2d 616,626 (5h Cir. 1996)
People ex rel. Union Bag & Paper Corp. v. Ex Rel. Union Bag & Papper Corp V. Gilbert 442,
444/SUP CT 10032
Obergefell V. Hodges 2nd Cir. 2015
Gideon V. Wainright, 372 US 335 (1965)
U.S V Hikson 585 F.3d 1247 (9th Circuit)
Anderson V City of Bessemer, NC 470 US 564, 577
Commonwealth V. White 910 A.2d 626 (PA. 2006

1
2

■V

Statement of Case
3:83-cr-00213-Sl Document 102 Sec 2255 No. 1551 Certiorari Appeal from 9thh Circuit.

3

l.The appellant, Keith Smeaton, who until this matter has no criminal record,

4

respectfully moves that the court grant an order to remove any mention of his

5

criminal record from the internet and repeal the charge of wire fraud and bail

6

jumping on grounds the District Court Judges Illison in 2018 and 9th Circuit Court

7

Judges in January 2020 and 2021 erred denying appellant’s Petition For Habeas

8

Corpus Sec 2255 No. 1551 denying his Constitutional rights and due process.

9

2.The appellant in 1983 was induced / coerced to wrongly plead guilty to one count

1

10

of wire fraud when not in sound state of mind. Subsequent expert testimony evidence

11

by Doctor Sikorski, adduced during bail jumping trial case WWS-83-cr-0693,

12

confirmand appellant was experiencing Adjustment Reaction (the legal definition is

13

unable to do anything simple open to the suggestion) to plead guilty as the transcripts

14

prove. This is based upon the new post-conviction medical evidence proving

15

appellant specific details of his HIDDEN learning disability Dyslexia with which he

16

voluntarily returned to the Court’s jurisdiction with intent of setting aside the wire

17

fraud conviction. The grounds are undiagnosed dyslexia eliminated element of intent

v 18

resulting in misunderstanding not fraud which the 1983 D J and Government accepted

19

during bail jumping case 0693. The Adjustment Reaction result from the debilitating

20

psychological side effect of Appellant’s HIDDEN learning disability Dyslexia

21

defined as “One who cannot understand the MEANING of that which written”. The

22

further effect results in appellant subconsciously avoids written matter relying upon

23

verbal agreements. Ref Medical Diagnosis by Doc Beverly Hornsby, UK, Mr Guy

24

Grey Educational Consultant and Member of the Royal Academy’s working

i

25

team on dyslexia and the 2018/19 leters form Hackney NHS Psychological

26

department confirming the said effects are current.

27

3. The U.S Prosecutor not educated in learning disability mis-understood appellant’s

28

actions as criminal when the Sec 2255 proves otherwise. Therefore, through

29

ineffective assistance of FPDs failure to investigate said effects in detail and the 1985

30

DJ judicial errors, said prosecutor and postal inspector were able to manufactured

31

prosecutorial evidence and concealed defense evidence to selectively and maliciously

32

prosecute appellant and manipulated the Court process to secure false conviction via

33

guilty plea and pervert their investigation. In support prosecutor concealed the

34

evidence of Mr R.L Abbott, ex appellant’s business partner and professional conman,

35

who obstructed justice when lying to the Government’s investigating officers on

36

grounds said investigating officers concealed the Civil judgment against Mr Abbott

37

redressing Abbott’s theft of appellant’s ID stealing vast amounts of credit leaving

38

him with debt. The Government built their case against appellant based (i) appellant

39

stole form Abbott Abbott’s and (ii) Appellant made false statements to banks when

40

Government possessed appellant’s handwriting samples proving he did not which the

41

Government concealed form grand jury which FPD failed to investigate or expose
and who forced appellant to plead guilty refusing to investigate this prosecutorial

43

misconduct and that appalment was under psychotherapy at the time suffering for an

44

Adjustment reaction rendering him unable to do anything simple and open to

45

suggestion to plead guiltily by coercion and intimidation ignoring the evidence

46

proving appellant’s innocents he did not make false presentations to his clients that a

47

trust account existed for clients money because the evidence confirms it was the B of

48

A who did independently of appellant. DJ failed to comply with rules governing

49

guilty pleas as agued hereafter..

i

50

4. Subsequently, after dyslexia therapy with prison Speech therapist facilitating

51

appellant’s understanding / access to the prison law books he, with other inmate

52

assistance filed his pro se Sec 2255 No. 1551 Habeus Corpus which arguably

53

invokes Civil Rights claims of false imprisonment. See: Murphy V Smith requiring

54

pro se litigants be appointed council.Ref Sec 2255 No. 1551 exhibited herewith.

55

Appellant, upon release from prison was excluded to UK but found he was not

56

released from Federal Conviction controls because he has been continually bared

57

from:

58

a - entering the USA;

59

b - Boarding a plane which passes through U.S Air Space which;

60

c - Requires him to change plans at an airport located on U.S soil and;

61

d - Has no control of convictions being used against him in the UK and;

62

e - Suffer continued social embarrassment and prejudice and discrimination and ;

63

f - His character is questioned when arriving at other nations ports of entry.

64

65

5.The Appellant’s argues that contrary to the 2018 DJ’ denying Certificate of Appealability and

66

Government’s opposing opinion does not challenge appellant’s Sec 2255 grounds but only

67

challenges the DJ’s jurisdiction to hear the Sec 2255 2028 and the 9th Circuit’s failing to review

18
\

the lower decisions but introduced erroneous other reasons that Appellant has not shown denial of

69

constitutional rights which is not true, the Sec 2255 must be granted for good cause shown

70

because appellant’s has demonstrated in this narrative that the lower DJ (i) “DOES have

71

jurisdiction “ and (ii) should have issued certificate of appealability and the 9th Circuit should

72

have (iii) either retuned Sec 2244 to DJ or (iv) set-aside lower DJ’s irrational judicial reasoning

73

denial order granting it and fraud and bail jumping convictions against appellant be set-aide and

74

all records and publication including the internet be removed on grounds a reasonable jurist will

75

clearly find appellant has been denied Constitutional Rights as further argued hereafter:

76

1. On September 14th, 2017, HHJ Peter 1. Shaw, 9th Circuit, Apellet Commissioner 9th Circuit

77

Court of Appeal, correctly ordered (No. 17-71850) appellant’s Sec 2255 No. 1551

78

Petition for Habeas Corpus transferred to District Court for listing hearing pursuant to

79

Stephens v. Herrera 464 F.3d 895, 897 (9th Cir.2006). HHDJ Illsion ordered

80

Government to reply which they did within time. (This is significant as prior 1985 DJ

81

refused to do same and only acted upon Sec 2255 almost 90 days after receipt of it

82

overriding Title 28 USC Sec 2255 rule which said judge had no jurisdiction denying

83

Sec 2255 as “Meritless” denying appellant’s Constitutional Rights on grounds judges

84

personal letter blocked appellant’s appeal )

85

6. On September 29, 2018 HHJ DJ Ilison erred when denying appellant’s certificate of

86

Appealability dismissing Sec 2255 on grounds of U.S V. Kramer 195 F.3d 1129,1139 (9th

87

Cir. 1999) and U.S V. Reves, 774 F.3d 562,564-65 (9th Cir. 2014) on grounds Sec 2255

88

only applies to incarcerated Prisoners and appellant had been released many years ago in

89

1986/7.

90

7. DJ wrongly accepted the Government’s only single objection arguing that therefore DJ

91

had no jurisdiction to hear said Sec 2255. Note, the DJ avoided the evidence that the

92

Government did not oppose any of the grounds raised in Sec 2255’s arguments supported by

13

the new post-conviction medical evidence and its supporting law which a reasonable jurist

94

would agree has Constitutional grounds to release appellant from prison and vacation of fraud

95

conviction for good cause shown.

96

8. On April 2020 HHJs Owen and Bennett’s Order No. 20-15364 D.C. 3:17-cv-06828-SI

97

erred when they denied appeal from DJ Illison on grounds of Slack V McDaniel 529 U.S.

98

473,484 (2000) and Gonzalez. Thaler. 565. U.S 134,140-41 (2012) on grounds “The

99

request for certificate of appealability is denied because appellant has not shown that “jurists

100

of reason” would find it debatable whether the (Sec 2255 motion) states a valid claim of

101

denial a constitutional right and that jurists of reason would find it debatable whether the DJ

102

was correct in its procedural ruling”. Appellant objects to this finding as unreasonable an

103

unfair and a denial of Constitution rights.

104

9. On January 15, 2021 chief Judge HHJs Thomas and Circuit Judge Bress erred when

105

dismissing motion for reconsideration en-banc on behalf of the court See: 9th Cir. R.27-10;

106

9th Cir. Ord 6.111. No further filings will be entertained in this closed case. Appellant

107

objects to this finding as unfair and unreasonable on grounds appellant did not receive the

108

prior 2020 9th Circuit order until January 2021 because the Clerk sent it to the wrong UK

109

address.

110
ill

10. Appellant also challenges the prior above opinions on grounds:
(i)

The DJ and all of the appeal judges failed to consider the factual arguments and

112

supporting evidence and law - statute and common - raised in Sec 255 which are

113

indisputable and therefore a reasonable jurist will find merit and therefore judge’s

114

orders denying Sec 2255 are in error and are denial of constitutional rights. Re:

115

Sec 2255 No. 1551 exhibited herewith.

116

(ii)

Because The Government’s had no evidence or grounds to oppose the issues,

117

evidence and law raised in the Sec 2255 they therefore concurred with said Sec

'18

2255 and appellant said arguments and his innocents and the fraud indictment

119

should never have been brought and in support:

120
121
122
123
124
125
126
127
128
129
130
131

(Hi)

The case of Johnson v The U.S 576 U.S. 591 overcomes the lower courts
reliance on Kramer, Reves and Slack on grounds of Johnson finding: “.... The
rule in Johnson ako concerns the legality of a term of years sentence,
and some prisoners have already served much of—if not more than—
their lawful terms of imprisonment, which now cannot exceed ten years.
A remedy for a Johnson claim must be made available now to ensure that
prisoners do not serve more than their lawful terms of imprisonment.. .”
UNDER JOHNSON 1651 claims a chance at liberty—liberty to which they are
equitably and legally entitled.

(iv)

In support, lower judges erred on grounds they failed to consider:

132
133
134
135
136
137
138

(a) the Rules governing Sec 2255 which clearly state: “ (2) a person in custody
under a state-court or 2 federal-court judgment who seeks a determination
that future... custody under a state-court judgment would violate the....
Constitution laws or treaties ofthe United States e.g. The Universal
declaration of Human Right baring torture through false imprisonment
to which the U.S is a signatory.
(b) Therefore, failure to comply with both the intent of said Sec 2255 rules and

139

pursuant to Title 28 USC Sec 2255 is a denial of Constitutional Rights which

140

said judges refused to consider;

141

(c) Failed to comply with rule 11 F.R.Cr.P governing guilty pleas when wrongly

142

allowing the 1983 Prosecutor to describe the crime charged which evidence

143

proves was untrue specifically;

144

(d) appellant schemed to defraud his clients by misrepresenting there was a trust

145

account for client’s money which he knew at the time to be untrue because

146

he possessed evidence proving it was the B of A and Lloyds banks who

147

represented the trust account existed to appellant’s clients independently of

148

appellant which saved the bank from liability.

149

(e) Concealed appellant’s willingly provided hand writing samples from Grand

150

jury proving appellant did not make false statements to bank and did not

151

commit mortgage fraud and;

"52

(f)

misdirected the subsequent Bail Jumping jury all of which is a denial of
Constitutional Right of Due process.

153
154

11. The lower DJ’s and 9th Circuit Judges erred when failing to review the ineffectiveness of

155

FPD counsel when not investigating or filing a defense concerning:

156

(a) the above facts and;

157

(b) the true intent of appellant voluntary return with new post-conviction official medical

158

evidence to set-aside the fraud conviction before the grand jury handed down the bail jumping

159

indictment and;

/

160
161

(c) for not demanding appellant’s right to appear before the Grand Jury which the
Government wrongly caused which is a denial of Constitutional due process.

162

(d) for not objecting to the Government demand to cancel the due process pre-trial

163

evidentiary hearing to establish evidence to supporting trial or guilty plea. This suggests

164

Prosecutor was scheming to avoid examination of his and the postal Inspector’s obstruction of

165

justice argued above.

166
167

(e) Not objecting to 1985 DJ NOT acting upon Sec 2255 within 28/30 days of receipt
and;

168

(g) not objecting to 1985 DJ’s Judge denial of Sec 2255 by his unappealable personal

169

letters dated April 11, 1985. Appellant’s Petition for writ of Mandamus to 9th Circuit,

170

under the all writs act, obtained the official 1985 DJ’s court order simply stating sec 2255

171

“is meritless” with no judicially found opinion as to why which kept the appeal court in

172

the dark in-habiting its function. Appellant appealed.

173

(h) Not objecting to 1985/6 9th Circuit HHJ Choy refusing to act upon said appeal until

174

the appellant was released from prison months later. This act facilitated the 9th Circuit’s to

175

negate its legal obligation to the consider Sec 2255 issues in a timely manner,

176

contravening Constitutional intent of Sec 2255 of timely relief which is a denial of

177

Constitutional right arguably subjecting appellant to false imprisonment which is why

178

appellant filed his;

179

(i) FPD knew said Sec 2255 was filled on February 12, 1985 to correct injustice for

180

good cause shown but refused to assist.

181

(j) FPD stated Appellant was technically guilty, what does that mean?

182

(k) TFPD negligent not objecting to DJ error denying appellants’ constitutional right to a

183

fair hearing when failing to consider appellant’s argument raised in his Sec 2255 that (1)

184

FPD was ineffective e.g. when failing to file defense to fraud based upon promissory

185

estoppel and appellant’s innocents which the government did not and has not challenge

186

to date. Therefore the lower judges further erred when ignoring Sec 2255 promissory

187

estoppel argument that there was a verbal agreement between him and the banks resulting

188

in promissory estoppel and appellant’s innocents. As appellant argues in his sec 2255:

189

According to Black’s Law dictionary, promissory estoppel is the legal enforcement of a

190

promise made by words or conduct to the promissee without the consideration of the

191

detriment it may cause e.g: Shop keep agrees to hole an item for a customer at an agreed

192

price and the sell the item to another customer at a higher price. While the first customer

193

is away to obtain the money and return to pay shop keeper and collet item. The shop

194

keeper’s actions was not an intentional scheme to defraud the first customer. IN this case

195

at bar the prosecutor and postal inspector not educated in the application of civil

196

promissoiy estoppel law and not understanding debilitating effects of undiagnosed

197

dyslexia manufactured the evidence to falsely create the impression of appellant’s

198

intentional scheme to defraud his clients this clients. To make this scheme stick, the

199

Prosecutor and Postal had to also create the illusion that appellant has a history of

200

criminality which is why the couched witnesses as to my supposed criminality, which is

201

untrue as evidence supports e,g obtained character references from friends for the purpose

202

of obtaining immigration statutes when mu intent was for sentencing mitigation. The FPD

203

further negligent because he was aware I was concurrently applying for green card

204

residency rand FPD instructed me to also give references to Probation officer. The FPD

205

refused to inform the Court of this to my detriment. The Prosecutor who was aware of my

206

immigration application also refused to inform the Court of it. The prosecutor, via

207

probation office, mislead sentencing DJ Appellant had intentionally lied to said friends

208

and associates with the intent to support his scheme to prove I was career criminal

209

misleading the court to impose maximum sentence consecutive bail jumping sentence

210

which the Judge did in very irrational angry and over emotional state.

211
212

12. Therefore, because of the above reasons a reasonable jurist would find appellant had

213

demonstrated denial of Constitutional right and due process. All prior courts to date save

214

HHj Peter L. Shaw have wrongly denied appellant’s Sec 2255. Hence prosecutor’s

215

intentional obstruction to mislead the Grand Jury DJs and Appeal judges concealing

216

defense evidence on grounds he set himself au as judge and jury believing appellant was

217

in fact a criminal who must go to prison and he must achieve this by manipulation of the

218

court process. To date said judiciary have protected him and Postal Inspector save HHJ

219

Peter L. Shaw. FPDs to date have refused to present for forging to the court and in 2018

220

The Government in response to Sec 2255 refused to avoid the forging stated prosecutorial

221

abuse facts.

222

(13) Because Appellant had no intent to defraud on grounds the appellant acted upon the

223

bank’s representation that the trust account existed prior to and after the surprising

224

bankruptcy of BB&B Corp who verbally agreed to take over Appellant’s WIMG Corp

225

who agreed to deliver clients jewelry but did not do so, his actions give rise to promissory

226

estoppel which negates the required element of intent.

227

(14) FPD infectiveness when he failed to object to 1983 prosecutors false statement I open court

28

that appellant had cheated all he had been in contact since arriving in the USA which Prosecutor

229

knew at the time was untrue which arguably invokes Assistant Prosecutor’s’ and Postal

230

Inspectors contravention of Title 18 USC Sec 1510 / 1503 The grounds are Prosecutor and Postal

231

Inspector again concealed the civil Judgement appellant obtained in the Walnut Creek County

232

Court against R L Abbott, business partner, who stole appellant’s ID and stole money form

233

appellant’s credit leaving him with the debt and also stole money from appellant’s family

234

business RJS packaging Corp killing appellant’s family member and another’s hart attack causing

235

homelessness and sever financial and psychological damage internationally which occurred in

236

1978. The prosecutor and Postal Inspector also concealed the evidence that one Mr Mayer

237

Relator’s scheme to use appellants dyslexia disability to obtain money form a mortgage bank

238

when he -Mr Mayor,, unknown to appellant, misstated applicant’s income on mortgage

239

application which appellant signed blank due to dyslexia. This resulted in Mayor also retaining

240

the property and the mortgage money again causing appellants infant families homelessness

241

while appellant was wrongly in jail. The prosecutor and postal inspector used said mortgage

242

application against appellant illegally knowing the hand writing was not that of appellant.

243

Therefore he indictment is the result of the prosecutor’s and Postal joint fruit of the poison tree

244

the root of which is when the concealed defense evidence form the Grand Jury and which the

245

2018 Assistant prosecutor did not oppose in his reply to Sec 2255. Therefore how can HHDJ

246

Illison and 9th Circuit deny appellants Sec 2255 for not showing denial of Constitution rights

247

when the U.S Supreme Court ruled in Jonson V United States the U.S : The U.S Constitution

248

Guarantees due proses? For a person to be convicted of obstructing justice, that

249

person must not only have the specific intent to obstruct the proceeding, but

250

that person must know (1) that a proceeding was actually pending at the time;

251

and (2) there must be a connection between the endeavour to obstruct justice

252

and the proceeding, and the.

253
"’54

15. Therefore, Strickland V Washington is applicable here because they did not do what

255

they should have done and for the forgoing reasons of ineffective assistance issues .

256

16. In 2018 DJ Ilision and 2021 and 2021 9th Circuit erred when ignoring FPD’s

257

negligence for their not. Doing what they should have done as appellant argues in his Sec

258

2255 which said the HHDJ Ulision refused to consider but government did not oppose

259

and 9th Circuit also refused to consider when knowing the 2020 and 2021 judgments were

260

a denial of Constitutional right and international HUAN Rights.

261

262

17.Subsequently, in 2015/16, when appellant’s Adjustment Reaction had dissipated he

263

was able hto file his unchanged original Sec 2255 with 2017 9th Circuit in attempt to set-

264

aside convictions and stop the international publications of conviction via the internet.

265

Which 1985 W W. Schwarzer DJ and HHJ Choy, 9th Circuit, illegally Blocked from is

266

Constitutionally required due process through the court system by DJ denying Sec 2255

267

with his knowingly unappealable personal letter which is not a court order and the 9th

268

Circuit refused to consider its appeal until appellant was released form prison negating its

269

constitutional intent. All attorneys to date refuse to assist appellant.

270
271
Ill

18. The judges rulings clearly erroneous;
(i)

being ABUSE OF DISCRETION, DE NOVO The requirement that findings

273

be clearly erroneous to be set aside is a standard of review used

274

especially by an appellate court when reviewing a trial judge's (as

275

opposed to a jury's) findings of fact for error.

276
277
278
279
280
281
282
283
34

(ii)
Judges abuse of discretion
An error of judgment by a trial court in making a ruling that is clearly
unreasonable, erroneous, or arbitrary and not justified by the facts or the law
applicable in the case. United States v. Hinkson. 585 F.3d 1247 (9th CAr. 2009) (en
banc) - to clarify what the standard means. The court adopted a two-part test. See id. at
1261-63. The first step “is to determine de novo whether the trial court identified the correct
legal rule to apply. "Id. at 1262. The second step is "to determine whether the trial court's
application of the correct legal standard was (1) 'illogical,' (2) 'implausible,' or (3) without
‘support in inferences that may be drawn from the facts on the record.’

285
286

19. The subject record is the Sec 2255 , its exhibits, arguments and the transcripts of the

287

Plea proceeding filed with the appeal court which DJ Ilison and 9th Circuit judges refused to

288

consider and which the Government accepted and therefore agreed with when not

289

opposing them when only challenging DJ’s jurisdiction to hear Sec 2255 No. 1551.

290
291

20. Conclusion:

292

Certiorari should be granted Cheek v. United States, 498 U.S. 192 (1991), was a United

293

States Supreme Court case in which the Court reversed the conviction on grounds

294

negation of witfulness.

295

21 .Contrary to Government’s false assertion Appellant’s did not return to the court’s

296

jurisdiction under a false man. The printer mistook appellant’s bad hand writing namely

297

the letter “m” in Smeaton as “W”. The one leter error cannot be assumed as traveling

298

under a false name. Ref Sec 2255 No. 1551. The Government congealed appellants’

299

passport Cleary in the name of SMEATON. Again Government erred when misleading

300

the Courts when wrongly stating appellants Sec 2255 is a second “successive “habeas

301

corpus when they knew it was the original 1985 Sec 2255 which HHJ Peter L. Shaw in

302

201 7 realized it had been denied due process of law previously / suppressed in

303

contravention of Constitutional rights. Which Government does not deny and avoid to

304

address and which DJ and 9th Circuit Judges avoid to consider.

305

22. In support, HHDJ Nison in her judgment denying Certificate of Appeal denying and

306

Sec 2255 flippantly glosses over appellant’s Sec 2255 grounds argued above, e.g. new

307

post-conviction evidence and supporting USC and Appeal court law and refuses to

308

seriously consider them judicially as required by U.S Constitutional Due process lof aw

J9

5

and Title 128 USC Sec 2255 as does the 2020 and 2021 9th Circuit Court of Appeal

310

denying Constitutional Rights.

311

23. Note, there is a conflict between the 9th Circuit HHJ Peter L. Shaw finding merit in

312

Sec 2255 and that it was originally in 1985 denied of due process requiring it must be

313

heard in accordance of law of due process as opposed to the 2020 HH Js Owen and

314

Bennett and HHJs Thomas and Bress who find there is no merit in it and should be

315

denied its legal due process of law. HHJ Peter L. Shaw is a very experienced legal mind
^ / -pj- I
■t'h &
tt-ert'-f IS fJ-oT S'efw

316

and would not have wasted public money and court time if he concurred with HHJs

317

Owen and Bress?

318

24. The 1939 /1945 German Government ordered its judiciary protect it from it’s

319

citizens’ complaints of prosecutorial and judicial misconduct.

320

25. Appellant understands his (i) novel arguments that civil promissory Estoppel is

321

defense to charge of criminal fraud and (ii) appellant’s argument supports grounds to

322

set-aside a guilty plea alters current judicial thinking and if granted establishes a

323

precedent which will effect many prior and current cases and (iii) The DJ’s failure to

J24

comply with Rule 11 F,R,Cr,P when WW Shcwarzer at least had obviously not complied

325

with in prior cases. However, common law is a changing developing philosophy

326

otherwise sink or swim law would be current. And which is why the government lower

327

courts oppose appellant’s Sec 22552.

328

26. If society had cared for his hidden mental disability of dyslexia he would not have

329

become a serial killer. The Fifth Amendment provides that “[n]o person shall... be

330

deprived of life, liberty, or property, without due process of law. ” Our cases establish that

331

the Government violates this guarantee by taking away someone’s life, liberty, or property

332

under a criminal law so vague that itfails to give ordinary people fair notice of the conduct it

333

punishes, or so standard less that it invites arbitrary enforcement. Kolender v. Lawson, 461

334

US. 352, 357-358 4 JOHNSON v. UNITED STATES Opinion of the Court (1983). The

335

prohibition ofvagueness in criminal statutes “is a well-recognized requirement, consonant

336

alike with ordinary notions offair play and the settled rules of law, ” and a statute thatflouts

337

it “violates the first essential ofdue process. ”

338
339

27. One final comment is that the prisons are full of dyslectic people because society

340

does not make the adequate adjustments for hidden disability dyslexia and who are

341

constantly abused by society because society does not make the said automatic

342

adjustments they do for physical manifestation of disability under the ADA Act 1990; Joel

343

Rifken for one.

344
345

28. Wherefore, the appellant pro se respectfully requests the Court to issue an order to

346

remove any mention of his criminal record from the internet and to repeal the charge of

347

wire fraud and bail jumping in the cause and interests of natural justice pursuant to

348

freedom and justice for all in the cause of life, liberty and happiness under God for good

349

cause shown if these doctrines are currently in force which form appellants experience with

350

the lower U.S Judiciary they are not which is an insult to the U.S Constitution.

351

toiDwb ZtfU MWa? W tol? &ifctzUML^r ftWL'f
0€

352

Respectfully

353

Keith Smeaton

/ i
* i

Pro Se.

354
355
356
357

Appellant Defendant.

/

fibi Xtrmeb

